NO:_____________________
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
MARTIN RACIOPPI,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
Julie A. McGrain, Assistant Federal Public Defender, a member of the Bar of the
Third Circuit Court of Appeals and appointed under the Criminal Justice Act, 18 U.S.C.
§ 3006A et seq., certifies that, pursuant to the April 15, 2020 Order of the Supreme Court
of the United States, she served one (1) paper copy of the within Petition for Writ of
Certiorari to the United States Court of Appeals for The Third Circuit and one (1) paper
copy of the within Motion For Leave to Proceed in Forma Pauperis by United States mail,
on the Clerk of the Supreme Court, Supreme Court Building, 1 First Street, N.E.,
Washington, D.C. 20543 on August 28, 2020. At the same date and time, copies of same
were forwarded by first class mail to:
The Honorable Noel Francisco
Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

Patricia S. Dodszuweit, Clerk
United States Court of Appeals
For the Third Circuit
21400 United States Courthouse
601 Market Street
Philadelphia, Pennsylvania 19106-1790
Martin Racioppi
Register No. 60435-050
FCI Ray Brook
P.O. Box 900
Ray Brook, NY 12977
Electronic versions of the filings were also submitted through the Court’s
electronic filing system.

s/ Julie A. McGrain
__________________________________
JULIE A. MCGRAIN
Assistant Federal Public Defender
Counsel of Record
RICHARD COUGHLIN
Federal Public Defender
Federal Public Defender’s Office
District of New Jersey
800-840 Cooper Street, Suite 350
Camden, New Jersey 08102
(856)757-5341
Counsel for Petitioner
Martin Racioppi
Dated: August 28, 2020

